ORIGINAL

No,

FILED
MAR 2 3 ®
l^aMaS

IN THE
SUPREME COURT OF THE UNITED STATES

JEREMY RANDOLPH MARTIN

— PETITIONER

(Your Name)
vs.

UNITED STATES OF AMERICA

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

IISSS RfflHOTTOT fiPEEALS FOR THE FOURTH CIRCUIT_______________

(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

JEREMY RANDOLPH MARTIN
(Your Name)
P.0. BOX 420

(Address)
FATRTflN. NJ 08320

(City, State, Zip Code)

NOT APPLICABLE^
(Phone Number)

QUESTION(S) PRESENTED

1) Do theoconditions of petitioner's supervised release requiring
petitioner to have his probation officer's prior approval to own,
purchase, possess, or use the internet or electronic communication
devices and requiring him to allow the FBI to install internet
activity monitoring software on his devices violate the decision
of this court in Ashcroft V. Free Speech Coalition?152 L.Ed 2d 403?

2) Do above mentioned conditions violate U.S. Const. Amends. I & V?

3) Do any of above mentioned conditions conflict with the decision
of the 3rd Cir. Court of Appeals in United States V. Holena 903 F
906 F.3d 288 on same important issue?

LIST OF PARTIES

[X| All parties appear in the caption of the case on the cover page.
[ ] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:

RELATED CASES
United States V. Martin~v5:15-cr-00086-FL-l (EDNG); No. 20-6387
(4ttti Gir.)(currently pending case before SCOTUS)

4

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

4

REASONS FOR GRANTING THE WRIT
CONCLUSION

8

INDEX TO APPENDICES
APPENDIX A

Denial of the Court of Appeals for the 4th Cir.

APPENDIX B

Denial of U.S. District Court EDNC of Motion to

modify conditions of probation
APPENDIX C Denial of the Court of Appeals for tHe 4tHi Cir.
for rehearing and reHearing en banc.

APPENDIX D
APPENDIX E
APPENDIX F

5

TABLE OF AUTHORITIES CITED
CASES

PAGE NUMBER

United States V. Holena 906 F.3d 088 (3rd Cir)

6,7

Packingham V. North Carolina 198 i,L. Ed 2d 273

6

Ashcroft V. Free Speech Coalition 152 L.Ed 2d 403

5, 6

Shelton V. Tucker 5 L.Ed 2d 231

6

STATUTES AND RULES

OTHER
United States Constitution Amendment I

3

United States Constitution Amendment V

3

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW

$P For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at________________ ____________________ . or>
[ ] has been designated for publication but is not yet reported; or,
W is unpublished.
The opinion of the United States district court appears at Appendix
. the petition and is

r

[ ] reported at _______________________ _____________ . or>
[ ] has been designated for publication but is not yet reported; or,
[XI is unpublished.
[ ] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix--------to the petition and is
[ ] reported at __________________ ._________________ . or>
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _
court
appears at Appendix
to the petition and is
[ ] reported at____
____________________ ; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

to

a

to

JURISDICTION

[x] For cases from federal courts:
The date on which the United States Court of Appeals decided my case
was Oct. 1. 2020_______
[ ] No petition for rehearing was timely filed in my case.
[X] A timely petition for rehearing was denied by the United States Court of
7070
Appeals on the following date: Nnv
, and a copy of the
order denying rehearing appears at Appendix
C
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including___________ :_____ (date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[ ] For cases from state courts:
The date on which the highest state court decided my case was
A copy of that decision appears at Appendix______
[ ] A timely petition for rehearing was thereafter denied on the following date:
, and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

2 3 «

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution Amendment I: Freedom of Speech Clause.
Congress shall make no law...Abridging the freedom of

S : '■ ■ O

speech.(full quotation omitted)
United States Constitution Amendment V: Deprivation of Liberty
No person shall...be deprived of life, liberty, or property,
without due procces of law.(internal quotations omitted)

&3

STATEMENT OF THE CASE
Petitioner pro se, Jeremy Randolph Martin, filed a motion
to modify conditions of his probation in the U.S. District Court
for t'he Eastern District of North Carolina seeking to eliminate
two conditions involving use of electronic communication devices,
and internet; and the installation of monitoring software on such
devices.

The court denied his motion, and he then appealed to the

COA affirmed,
U.S. Court of Appeals (COA) for the Fourth Circuit,
and denied rehearing, rehearing en banc, Now petitioner seeks
relief from this court to address Constitutional violations.

ft 4

REASONS FOR GRANTING THE PETITION
Petitioner pro se, Jeremy Randolph Martin, seeks to
challenge two conditions of his Supervised Release,

e.i

Specifically

he seeks to eliminate the conditions requiring him to have his
probation office's prior approval to purchase, own, possess, or
use computers or other electronic communication devices or the
internet,

He also seeks to eliminate the condition requiring

him to allow t(fe FBI to install intenet activity monitoring
software on his internet connected devices.
QUESTION 1: DO THE CONDITIONS OF PETITIONER'S SUPERVISED RELEASE
REQUIRING PETITIONER<T0 HAVE HIS PROBATION OFFICER'S PRIOR

:

APPROVAL TO OWN, PURCHASE, POSSESS, OR USE THE INTERNET OR
ELECTRONIC COMMUNICATION DEVICES AND REQUIRING HIM TO ALLOW THE
FBI TO INSTALL INTERNET ACTIVITY MONITORING SOFTWARE ON HIS
DEVICES VIOLATE THE DECISION OF THIS COURT IN ASHCROFT V. FREE
SPEECH COALITION 152 L.ED 2D 403?
Petitioner contends that both of the conditions he seeks
eliminate conflict with the decision of thus court in Ashcroft
V. Free Speech Coalition 152 L.Ed 2d 403,407 (2002)(The free
speech guarantee of the Federal Constitution's First Amendment
gives significant protection from overbroad laws that chill
speech within the First Amendment's sphere,

v

[Under tlfus

principle, a [donation of supervised release] is unconstitutional
on its face if the [condition] prohibits or chills a substantial
amount of protected speech.]) (emphasis added)

Petitioner argues

that the above mentioned conditions cttill protected speech of
petitioner by preventing him from even using internet or ^1
85

'

electronic communication devices whic^h are venues of protected
speectft.

Ttese conditions are, according to As'hcrof t 152 L.Ed^d

@407, "unconstitutional on tHeir face" for ttte reasons stated
herein.
QUESTION 2; DO ABOVE MENTIONED CONDITIONS VIOLATE U.S. CONST.
AMENDS. I & V?
petitioner Has mentioned in question 1 how tlfiese conditions
violate tHe First Amendment.

But Packingham V. North Carolina

198 L.Ed 2d 273,275 says that "it is well established tlfet, as a
general rule, t^he government may not suppress lawful speech as the
means to supress unlawful speech."

This is exactly what these

conditions are doing.
As to tWe Fifth Amendment, Shelton V. Tucker 5 L.Ed 2d 231,
232(1960) says that 11II even though governmental purpose be legitimate
and substantial, that purpose cannot be pursued by means that

. O

broadly stifle fundamental personal liberties when end can be more
narrowly achieved; breadth of legislative abridgment must be
reviewed in light of less drastic means for achieving same basic
purpose.'"

The governments objective in placing these conditions

may be legitimate, but they stifle more liberty than is necessary
to rehabilitate petitioner.
QUESTION 3: DO ANY OF ABOVE MENTIONED CONDITIONS CONFLICT WITH THE
DECISION OF THE 3RD CIR. COURT OF APPEALS IN United States V. Holena
906 F.3d. 288 ,'ON SAME IMPORTANT ISSUE?
Petitioner contends tlhat the first condition conflicts
wit'K tIhe 3rd Cir. COA's decision in that United States V. Holena
9Q6t'f.3d 288 says "conditions of defendant's supervised release
requiring him not to possess or use computers or other electronic
communication devices or to use the internet without his probation
officer's aproval were contradictory and swept too broadly, raising
X6

First Amendment concerns and depriving him of more liberty than
was reasonably necessary to deter crime, protect the public, and
rehabilitate defendant under 18 UiiS.C.S. § 3583(d)(2)."

This same

important issue is the exact'same situation in petitioner's case.

7/

7

>

l

\
I

CONCLUSION

The petition for a writ of certiorari should be granted.

;

Respectfully submitted,

(&Ai/b^i
*

8

